<html>
<title> - ASSESSING THE HUMAN RIGHTS SITUATION IN SAUDI ARABIA</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]



 
          ASSESSING THE HUMAN RIGHTS SITUATION IN SAUDI ARABIA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
         MIDDLE EAST, NORTH AFRICA, AND GLOBAL COUNTERTERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 18, 2021

                               __________

                           Serial No. 117-22

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                       
                       
                            ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
43-783PDF              WASHINGTON : 2021                        
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                  GREGORY W. MEEKS, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
ALBIO SIRES, New Jersey                  Member
GERALD E. CONNOLLY, Virginia        CHRISTOPHER H. SMITH, New Jersey
THEODORE E. DEUTCH, Florida         STEVE CHABOT, Ohio
KAREN BASS, California              SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts      DARRELL ISSA, California
DAVID CICILLINE, Rhode Island       ADAM KINZINGER, Illinois
AMI BERA, California                LEE ZELDIN, New York
JOAQUIN CASTRO, Texas               ANN WAGNER, Missouri
DINA TITUS, Nevada                  BRIAN MAST, Florida
TED LIEU, California                BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania            KEN BUCK, Colorado
DEAN PHILLIPS, Minnesota            TIM BURCHETT, Tennessee
ILHAN OMAR, Minnesota               MARK GREEN, Tennessee
COLIN ALLRED, Texas                 ANDY BARR, Kentucky
ANDY LEVIN, Michigan                GREG STEUBE, Florida
ABIGAIL SPANBERGER, Virginia        DAN MEUSER, Pennsylvania
CHRISSY HOULAHAN, Pennsylvania      AUGUST PFLUGER, Texas
TOM MALINOWSKI, New Jersey          PETER MEIJER, Michigan
ANDY KIM, New Jersey                NICOLE MALLIOTAKIS, New York
SARA JACOBS, California             RONNY JACKSON, Texas
KATHY MANNING, North Carolina       YOUNG KIM, California
JIM COSTA, California               MARIA ELVIRA SALAZAR, Florida
JUAN VARGAS, California             JOE WILSON, South Carolina
VICENTE GONZALEZ, Texas             RON WRIGHT, Texas
BRAD SCHNEIDER, Illinois

                                     
                                     
                   Jason Steinbaum, Staff Director                  
                Brendan Shields, Republican Staff Director
                                 ------                                

 Subcommittee on Middle East, North Africa, and Global Counterterrorism

                 THEODORE E. DEUTCH, Florida, Chairman

GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California                 SCOTT PERRY, Pennsylvania
COLIN ALLRED, Texas                  ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey           LEE ZELDIN, New York
KATHY MANNING, North Carolina        BRIAN MAST, Florida
WILLIAM KEATING, Massachusetts       TIM BURCHETT, Tennessee
BRAD SHERMAN, California             GREG STEUBE, Florida
JUAN VARGAS, California              RONNY JACKSON, Texas
BRAD SCHNEIDER, Illinois             MARIA ELVIRA SALAZAR, Florida

                      Casey Kustin,  Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Nossel, Ms. Suzanne, Chief Executive Officer, PEN America........     9
Aldosari, Dr. Hala, Scholar in Women's Health and Activist from 
  Saudi Arabia...................................................    16
Fontenrose, Ms. Kirsten, Director, Scowcroft Middle East Security 
  Initiative, Atlantic Council...................................    22

                                APPENDIX

Hearing Notice...................................................    59
Hearing Minutes..................................................    60
Hearing Attendance...............................................    61

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record..................    62


          ASSESSING THE HUMAN RIGHTS SITUATION IN SAUDI ARABIA

                        Thursday, March 18, 2021

                          House of Representatives,
             Subcommittee on the Middle East, North
               Africa, and Global Counterterrorism,
                      Committee on Foreign Affairs,
                                                    Washington, DC.

    The committee met, pursuant to notice, at 10:07 a.m., via 
Webex, Hon. Theodore E. Deutch (chair of the subcommittee) 
presiding.
    Mr. Deutch. The subcommittee on the Middle East, North 
Africa, and Global Counterterrorism will come to order. Without 
objection, the chair is authorized to declare a recess of the 
subcommittee at any point.
    All members will have 5 days to submit statements, 
extraneous material, and questions for the record, subject to 
the length limitation of the rules.
    We have been joined by the chair of the Foreign Affairs 
Committee, Chairman Meeks. Thank you so much for being here.
    As a reminder to members, please keep your video function 
on at all times, even when you are not recognized by the chair. 
Members are responsible for muting and unmuting themselves, and 
please remember to mute yourself after you finish speaking.
    Consistent with House Resolution 8 and the accompanying 
regulation, staff will only mute members and witnesses as 
appropriate when they are not under recognition to eliminate 
background noise.
    I see that we have a quorum. I'll recognize myself for 
opening remarks.
    Pursuant to notice, we are holding a hearing on human 
rights in Saudi Arabia. For decades, American presidents, both 
Democrats and Republicans, elevated human rights and advanced a 
values-based foreign policy, not because of altruism.
    Human rights and a principled foreign policy provided 
important advantages to the United States and strategic 
competition, and still does today, a competition with 
authoritarian rivals, from Putin's Russia to Khamenei's Iran to 
Xi's China.
    The U.S.-Saudi partnership forged in the aftermath of the 
Second World War is more than three quarters of a century old. 
It has persisted for more than 75 years through very different 
eras guided by very different kings and presidents because the 
United States and Saudi Arabia do share important interests.
    Working constructively and honestly with Saudi Arabia can 
advance U.S. interests and stability both in the Middle East 
and globally.
    However, human rights are a longtime point of contention in 
our relationship, and I believe that we must always ensure 
human rights are at the forefront of our foreign policy.
    The cold-blooded murder of journalist Jamal Khashoggi by 
Saudi operatives in October 2018 and the Trump administration's 
response, which prioritized business opportunities over values, 
forced the reconsideration of the role that human rights play 
in U.S.-Saudi ties.
    The brutal murder of Khashoggi, a Washington Post 
journalist and Virginia resident in Mr. Connolly's district, 
was a rebuke to the values for which America stands.
    Approved by the highest levels of the Saudi government, as 
the recently declassified U.S. intelligence report made known, 
the killing undermined Americans' confidence in our partnership 
with the kingdom and inflicted enormous damage on the bilateral 
relationship.
    Other recent Saudi actions have tested the relationship, 
including the arrest and alleged torture of women's rights 
activist Loujain al-Hathloul, who simply advocated for the 
right of Saudi women to drive.
    Loujain was recently released but Saudi Arabia upheld her 
original sentence, so she still faces 3 years of probation in 
addition to her travel ban. Her probation also stipulates that 
anything perceived by Saudi authorities as political activism 
could result in rearrest.
    Saudi Arabia also imprisoned the blogger Raif Badawi, who 
is serving a 10-year sentence on bogus charges related to his 
writing and peaceful activism, Dr. Walid Fitaihi, a U.S. 
citizen and medical doctor who worked to build bridges between 
his native and adopted countries, was sentenced in December to 
6 years in prison, and Dr. Bader al-Ibrahim, a journalist from 
northern Colorado who was targeted for his peaceful advocacy 
for social reforms.
    Saudi authorities also detained Salah al-Haidar, a writer 
and journalist, on baseless charges, and Aziza al-Yousef, a 
woman's rights activist who remains on provisional release.
    Both Mr. al-Haidar and Ms. al-Yousef are constituents of 
our colleague, Mr. Connolly, and as I mentioned earlier, Jamal 
Khashoggi was also a resident of Mr. Connolly's northern 
Virginia district, and I'd like to just take a moment to 
commend Mr. Connolly's tireless efforts on their behalf and for 
his work to uphold human rights in Saudi Arabia and around the 
world.
    Saudi Arabia is a partner, but we cannot be afraid to speak 
truth to our partners and we cannot sacrifice American values, 
especially when certain actions threaten the foundation of a 
relationship that advances U.S. interests.
    And while I acknowledge and appreciate recent Saudi reforms 
that provide greater rights to women and will reform elements 
of the Saudi judicial system, the Saudi government must take 
additional actions to address American concerns about the 
treatment of our citizens and residents. It must stop targeting 
Saudi dissidents and political activists, and must ensure 
fundamental human rights in the kingdom.
    Two and a half years after the murder of Jamal Khashoggi, 
we must reinforce this message already delivered by broad 
bipartisan majorities in Congress. We have passed multiple 
bills and resolutions calling for accountability for the murder 
of Khashoggi, the release of unjustly detained American 
citizens and Saudi political prisoners, and an improved human 
rights environment in Saudi Arabia.
    Additional measures, which we will hear about today, have 
been introduced in recent weeks by our colleagues on this 
subcommittee. Our focus must be on building a more balanced, 
healthy, and principled relationship with the kingdom.
    President Biden understands the role of values in our 
approach to the world. In fact, he has spent nearly 50 years 
advocating and implementing a principled U.S. foreign policy. 
The president believes, and I quote, ``The reason why we lead 
the world is not merely because we have the most powerful 
military in the history of the world. The reason we're followed 
is not because of the example of our power, but the power of 
our example, our value set. That's what's been able to persuade 
the world to move in the direction we want to move,'' closed 
quote.
    That's why the Biden Administration recently declassified 
and released the American intelligence community's assessment 
of the Khashoggi murder.
    I commend the Administration for taking this important and 
overdue step toward transparency, accountability, and justice 
for Jamal including the State Department announcement of visa 
restrictions and the Treasury Department's announcement of 
sanctions.
    These actions make clear the United States will not 
tolerate those human rights abuses, including the targeting of 
dissidents. But these actions should not be the last word.
    Congress must work with the Biden Administration on this 
difficult but necessary process of recalibrating U.S.--Saudi 
relations and ensuring that the tenor of bilateral ties always 
reflect our values as well as our national interests.
    I'd like to thank the witnesses for their testimony. I look 
forward to discussing this issue, which is so critically 
important to U.S. foreign policy, and to the protection of 
human rights around the world.
    And with that, I now yield to my friend from South 
Carolina, our ranking member, Joe Wilson, for any opening 
comments he may have.
    Mr. Wilson. Thank you, Mr. Chairman, and thank you, 
Chairman Ted Deutch, for calling this important hearing on the 
status of human rights in Saudi Arabia, America's 75-year 
partner providing for stability in the Middle East.
    With Crown Prince Mohammed bin Salman's increased policy 
role in recent years, there's been a shift in messaging coming 
from the kingdom.
    The ongoing domestic initiatives of Vision 2030, an agenda 
aimed at diversifying revenue, increasing tourism, and 
presenting Saudi Arabia as a modern kingdom ready to do 
business around the globe, all are hailed as revolutionary.
    More still can be done, though, to accomplish the kingdom's 
goals of being accepted and being, again, a very appreciated 
ally of the United States. It seems that the image being 
portrayed to the world does not reflect the realities of life 
of the citizens of Saudi Arabia.
    The release of the declassified report by the director of 
National Intelligence confirms that a team of operatives 
carried out the brutal murder of journalist and Saudi 
government critic, Jamal Khashoggi, who was living in Virginia.
    In recent years, there has been increased use by the 
Specialized Criminal Court officially designated to counter 
terrorism to prosecute journalists, activists, and political 
dissidents.
    I hope our witnesses will speak to how the United States 
can use its policies to promote accountability for the past 
crimes and ongoing abuses.
    There have been positive developments regarding the rights 
of women, such as the reversal of the archaic ban on women 
driving, more ability for women to participate in social and 
cultural events, and some changes in guardianship policies.
    Small steps toward progress should be recognized. Sadly, 
these policies have been accompanied by an ongoing crackdown on 
activism and dissent. Reports by some female activists allege 
torture, imprisonment, and arbitrary charges and sexual abuse 
while detained. These abuses should be fairly investigated.
    For years, the Kingdom of Saudi Arabia has also pledged to 
address the issue of promoting extremist views toward religious 
minorities through its educational material.
    The Office of International Freedom at the State Department 
and organizations have indicated that the textbooks in Saudi 
Arabia classrooms incite hatred and rejection of other 
religions.
    Phrases that explain jihad as, quote, ``a joined battle 
against disbelievers,'' end of quote, have been frequently 
found in Saudi textbooks. I was grateful to introduce the 
bipartisan H.R. 554, Saudi Educational Transparency and Reform 
Act in 2019 with the distinguished Member of Congress from 
Massachusetts, Representative Bill Keating to require an annual 
review of Saudi Arabia's textbooks, ensuring that there is full 
implementation of its commitment to reform. Also, a country 
seeking modernity must not be involved in propagating hate in 
its textbooks and sowing extremist sentiments in children.
    I appreciate that the witnesses here are before us today 
and we were very grateful to have them here. Look forward to 
their perspectives, and it's also very important that we 
understand in the Middle East how important Saudi Arabia is 
standing firm against the murderous regime in Tehran, which has 
attacked the kingdom with rocket attacks over the last 2 years.
    And with that, I yield back.
    Mr. Deutch. Thank you, Mr. Wilson.
    I'll now recognize the chair of the Committee on Foreign 
Affairs, Mr. Meeks. Chairman Meeks, we're very glad to have you 
with us today for this important hearing and are honored by 
your presence, and you're recognized for any opening remarks 
you may have.
    Chairman Meeks. Well, good morning, and thank you, Chairman 
Deutch, for holding this timely hearing and for your excellent 
opening statement. I want to associate myself with it in its 
entirety.
    To our distinguished witnesses, I want to also thank you 
for your insights on this important topic. Saudi Arabia is a 
long-standing and critical U.S. partner in a complex and 
changing region.
    Our political, economic, and commercial interests intersect 
in important ways and many of our regional goals align. These 
goals are essential to the security of our country and that of 
our closest allies, and must be pursued together.
    Nonetheless, for far too long, Saudi Arabia's routine 
suppression of basic rights and free expression has gone 
unaddressed. From the lack of religious freedoms and minority 
rights to the act of suppression of public debate, free speech, 
and a criminalization of dissent, such actions are a thorn in 
the side of this important bilateral relationship.
    Though Saudi Arabia has taken steps toward reform, such as 
granting women the right to drive and obtain travel documents, 
recent years have been marred by the Saudi government's 
brutality against dissidents, most notably the detention and 
abuse of numerous peaceful protesters and a brutal killing of 
The Washington Post journalist and U.S. resident, Jamal 
Khashoggi.
    Despite overwhelming evidence of the Saudi government's 
role in this murder, the previous administration did little to 
ensure our relationship with Saudi Arabia remained consistent 
with American values.
    In contrast, the Biden Administration's release of the DNI 
report was a good step toward accountability for the killing of 
Mr. Khashoggi, finally following a bipartisan legal requirement 
the previous administration refused to comply with for over 1 
year.
    Now, I look forward to the witnesses' testimony today and 
will close with this thought. We can and should maintain a 
strategic relationship with Saudi Arabia while being firm and 
clear about our values as a country, especially when it comes 
to the targeting of journalists, political dissidents, and the 
imprisonment of U.S. citizens.
    I look forward to hearing from the witnesses. Thank you, 
Mr. Chairman, and I yield back.
    Mr. Deutch. Thank you very much, Chairman Meeks.
    I will now introduce our distinguished witnesses. Ms. 
Suzanne Nossel is chief executive officer at PEN America. She 
previously served as chief operating officer of Human Rights 
Watch, executive director of Amnesty International U.S.A.
    She also served in the Obama Administration as deputy 
assistant secretary of State for international organizations, 
leading U.S. engagement in the U.N. and multilateral 
institutions on human rights issues, and in the Clinton 
Administration as deputy to the U.S. Ambassador for U.N. 
management and reform. She is the author of ``Dare to Speak: 
Defending Free Speech for All.''
    Dr. Hala Aldosari is a scholar of social determinants of 
health and gender-based violence research. She examines the 
influence of gender norms on women's political, economic, 
legal, and health statuses in the Arab Gulf States.
    Dr. Aldosari has worked as a biomedical scientist and 
consultant for the Ministry of Health of Saudi Arabia and as a 
lecturer of health sciences. She has been selected for 
fellowships and scholar residencies at multiple top 
universities, and she was the Washington Post's first Jamal 
Khashoggi Fellow.
    And Ms. Kirsten Fontenrose is the director of the Scowcroft 
Middle East Security Initiative at the Atlantic Council. 
Previously, she served as senior director for the Gulf at the 
National Security Council, leading the development of U.S. 
policy toward the GCC, Yemen, Egypt, and Jordan.
    Her interagency experience includes 5 years at the State 
Department, leading the Middle East and Africa team in their 
Interagency Global Engagement Center, and she spent a year in 
the private sector consulting on specialized projects in the 
national security space.
    Thanks to all of the witnesses for being here today. I will 
now recognize witnesses for 5 minutes each, and without 
objection, your prepared written statements will be made a part 
of the record.
    Ms. Nossel, you are recognized for 5 minutes.

   STATEMENT OF SUZANNE NOSSEL, CHIEF EXECUTIVE OFFICER, PEN 
                            AMERICA

    Ms. Nossel. Thank you, Chairman Deutch and Ranking Member 
Wilson, for convening this timely hearing.
    PEN America unites writers and their allies to celebrate 
creative expression and defend the liberties that make it 
possible. We're grateful for the opportunity to testify today 
on the ongoing assault on human rights and free expression in 
Saudi Arabia.
    PEN America has been vocal and active in advocating for 
justice following the murder of Jamal Khashoggi. In 2019, we 
awarded our PEN/Barbey Freedom to Write award to Saudi women's 
rights activists and writers Nouf Abdulaziz, Eman Al-Nafjan, 
and Loujain al-Hathloul.
    We recognize them for their fearless work exposing the 
deprivations of Saudi's infantilizing guardianship system over 
women and launched a global campaign for their freedom.
    While the recent conditional release of Hathloul and 
several other Saudi writers and women's rights activists is 
welcome, it must not blind us to the ongoing reality of 
sustained repression.
    Legal harassment, detention, and the threat of execution 
constrict the freedoms of those who dare speak out on sensitive 
subjects.
    Even those released are far from free, subject to travel 
bans, surveillance, and the risk of renewed imprisonment. The 
regime's determination to hunt down dissenters instills a 
fear--a sense of fear from which there is no escape, even far 
beyond Saudi borders.
    Saudi Arabia has long been one of the most restrictive 
countries in the world for human rights, including freedom of 
expression in the press. Crown Prince Mohammed bin Salman is 
sometimes described as a modernizer. But his updated policies 
and practices must not be mistaken for true liberalization, 
much less any commitment to human rights.
    The Crown Prince has sought to consolidate his shaky hold 
on power by pairing social reforms popular with young Saudis 
with an intensifying crackdown on dissent and free speech.
    Measures to loosen restrictions on dress, entertainment, 
social media, and women's autonomy have been paired with a 
clamp down on the country's most potent rights advocates and 
dissenters.
    Loujain al-Hathloul is a striking example. Women were 
granted permission to receive driver's licenses in June 2018. 
But just weeks prior, she and others who had campaigned for 
years to secure this freedom were arrested, entering a nearly 
3-year legal odyssey involving incommunicado detention and 
torture.
    The Crown Prince claimed glory for lifting the unpopular 
ban on driving, but went to extreme lengths to prevent those 
who had championed the cause from receiving credit or moving on 
to wage new fights for rights.
    Further waves of arrests of writers and activists in April 
and November 2019 evinced utter imperviousness to international 
outcry in the wake of the Khashoggi murder.
    The present moment represents a critical juncture to 
reorient U.S. policy on Saudi Arabia, making good on President 
Biden's promise to tip the scales in the direction of human 
rights.
    Saudi Arabia also represents an essential proving ground 
for an administration that aims to restore the U.S.'s 
legitimacy and leadership on human rights worldwide. Prisoner 
releases within weeks of President Biden's inauguration 
demonstrate the leverage the Administration can wield if it 
chooses to do so.
    After taking the crucial step of releasing the DNI report, 
the decision to spare the Crown Prince from sanction in order 
to protect other facets of the U.S.-Saudi relationship risks 
overshadowing the Administration's rhetoric and actions in the 
name of accountability.
    These include, importantly, the creation of a global 
Khashoggi ban, allowing visa restrictions for officials 
responsible for extraterritorial attacks on journalists. Robust 
further measures are now essential to ensure that neither Saudi 
Arabia nor the rest of the world are left with the impression 
that the U.S.'s commitment to human rights and press freedom 
will be traded away when the stakes are highest.
    The Crown Prince must face meaningful personal consequences 
for having directed the crime that shocked the conscience of 
the world. Otherwise, the shroud of untouchability shielding 
not just him but other abusive autocrats with whom the U.S. 
does business will stiffen with grave implications for global 
press freedom, free expression, and human rights.
    Congress should pass several bills that have been 
introduced to advance accountability for human rights 
violations in Saudi Arabia. These include the Saudi Arabia 
Accountability for Gross Violations of the Human Rights Act, 
introduced by Representatives Malinowski, McGovern, and Kim, 
the Protection of Saudi Dissidents Act reintroduced this year 
by Representative Connolly, and the Jamal Khashoggi Press 
Freedom Accountability Act, introduced by Representative Schiff 
and Senator Klobuchar.
    As for the Biden Administration, it should make good on its 
view voiced during the campaign that it would be necessary to 
seek a set of pledges from the Saudi government to ensure 
atrocities like the Khashoggi murder do not occur.
    They should make clear that such progress is a condition of 
future stable partnership with the U.S., including and 
particularly if the Crown Prince is to become king.
    The Biden Administration's commitment to rejoin the 
United--the U.N. Human Rights Council presents one vehicle. 
Saudi Arabia has been a member of the Council for 12 of the 
last 15 years since it was created in 2006.
    In running for election to the Council, the kingdom has 
pledged to consider joining key human rights treaties and 
cooperating with U.N. human rights mechanisms. But so far, 
these have been empty promises.
    In 2020, their candidacy was, thankfully, defeated in what 
the kingdom considered an embarrassing blow. The Biden 
Administration and the U.S. Congress should now push Saudi 
Arabia to adopt the Universal Declaration of Human Rights and 
the International Covenant on Civil and Political Rights, key 
human rights instruments that Saudi Arabia has never joined.
    Saudi Arabia should be pressed to permit entry by U.N. 
special procedures to carry out their work within country and 
to establish a U.N. Office for Human Rights in the kingdom that 
would help implement and assess planned legal and judicial 
reforms and advance further measures to uphold rights.
    Loujain al-Hathloul's sister Lina shared these words with 
us: ``Loujain was released thanks to international pressure, 
and the fight for her should not end here. Loujain is a symbol 
of Saudi Arabia's human rights defenders and giving up on her 
now is giving up on the fight for freedom. We thank the many 
Members of Congress who have raised their voices on behalf of 
writers, activists, and other human rights defenders in Saudi 
Arabia. It makes a difference and we must keep up and step up 
the fight.''
    Thank you.
    [The prepared statement of Ms. Nossel follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

      
    Mr. Deutch. Thank you very much, Ms. Nossel.
    Dr. Aldosari, welcome back to the subcommittee. You are 
recognized for 5 minutes.

 STATEMENT OF DR. HALA ALDOSARI, SCHOLAR IN WOMEN'S HEALTH AND 
                   ACTIVIST FROM SAUDI ARABIA

    Dr. Aldosari. Thank you, Mr. Chairman and distinguished 
members of the House for organizing this important event and 
for including my voice and voices in the region in your 
deliberation.
    I present my statement here as a citizen of Saudi Arabia 
who was forced into exile because of my advocacy for women and 
human rights in my country. I'm one of hundreds of Saudis, 
scholars, activists, who were forced in the last few years to 
seek refuge in other countries because of their writings or 
demands for reforms.
    Saudi Arabia has become one of the most repressive 
countries while pursuing certain legal reforms. The brutal 
murder, as mentioned, of Jamal Khashoggi has actually revealed 
the reality on the ground.
    Human rights in Saudi Arabia are severely limited because 
of the absolute monarchial system of governance. There is no 
political parties, independent media associational life for the 
civil society or any other means for peaceful safe public 
engagement in political affairs.
    The Royal Advisory Council is made up of appointed members 
without legislative or oversight power. Only two-thirds of the 
municipal council seats are open for election, and candidates 
are routinely disqualified if they were engaged in any public 
discourse on reforms.
    While activists and advocates for reforms are routinely 
targeted and silenced, the situation has become more aggressive 
both in scope and severity since the Crown Prince, Mohammed bin 
Salman, came to power in 2017.
    Several waves of arrests, as mentioned by my other 
colleagues, have targeted people of different backgrounds: 
religious reformers, bloggers, businessmen, Statesmen, members 
of the ruling family and men and women activists under various 
pretexts like fighting political Islam, corruption, or treason.
    The Presidency of State Security established by Mohammed 
bin Salman in 2017 reports directly to court or to Mohammed bin 
Salman with the authority of utilizing any institutional 
resources or manpower to conduct its operations without any 
kinds of judicial oversight.
    Testimoneys of several detained individuals indicate an 
alarming use of torture to coerce confessions or to seize 
personal assets. Laws on counterterrorism and cybersecurity are 
repeatedly cited in targeting peaceful advocates for reforms.
    In his 2018 mission report, the Special Rapporteur on the 
promotion and protection of human rights and fundamental 
freedom while countering terrorism expressed his concern that 
confessions obtained under torture were admissible and 
decriminalized in the specialized criminal court, and this is a 
quote often used to try activists and advocates for reforms.
    He also noted that there were 3,000 allegations of torture 
were formally recorded but without any kinds of persecution of 
officials involved. There are no safeguards against torture or 
ill treatment and most individuals are held incommunicado for 
extended periods of time.
    We have learned only from, you know, those who were 
recently released or the relatives of those who were detained 
about the different forms of torture used and how systematic it 
became as part of the State investigation.
    Electric shock, waterboarding, severe beatings, starvation, 
sleep deprivation were common practices in Saudi interrogation. 
In addition, the woman activist have also been exposed to 
sexual abuse and threats of rape and killing.
    They all have pointed to the role of the masked individual 
from the State Presidency Security and for individuals such as 
Saud al-Qahtani, who is an advisor or close advisor of Mohammed 
bin Salman and who has been cleared from any kinds of 
responsibility and the Khashoggi killing.
    So despite very good reforms to ease the restrictions on 
women's autonomy and women mobility, women remain vulnerable to 
discrimination and abuse. These reforms do not protect women 
from their guardians asking for--you know, revoking any kinds 
of rights because of this obedience or absence from home.
    Sponsorship system remains problematic, despite the reforms 
that have been in effect, and we, as a people, have come 
together to establish a vision for reform that puts people in 
exile--I mean, Saudi people in exile--have put the people's 
vision for reforms that centers human rights and social justice 
as key measures or benchmarks for any meaningful reforms.
    And I thank you. I do not want to speak more, but we can 
definitely discuss this at length in questions.
    Thank you.
    [The prepared statement of Ms. Aldosari follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

        
    Mr. Deutch. Thank you very much, Dr. Aldosari.
    Ms. Fontenrose, you are recognized for 5 minutes.

  STATEMENT OF KIRSTEN FONTENROSE, DIRECTOR, SCOWCROFT MIDDLE 
           EAST SECURITY INITIATIVE, ATLANTIC COUNCIL

    Ms. Fontenrose. Chairman Deutch, Chairman Meeks, Ranking 
Member Wilson, and members of the subcommittee, thank you for 
your attention to an interest in shaping the future of the 
U.S.-Saudi relationship.
    The U.S. has an opportunity now at the start of an 
administration that has made it clear that the U.S.-Saudi 
relationship will be recalibrated to set a course for the 
bilateral that protects and advances both human rights and U.S. 
strategic interests.
    The administration's vow to apply Global Magnitsky 
sanctions to employees of the kingdom who threaten Saudi 
activists abroad is a step in the right direction. Likewise is 
the travel visa ban on Khashoggi--or the Khashoggi ban, though 
it is a downside in the eyes of human rights attorneys that we 
can discuss later if you're interested.
    Diplomatically, President Biden's choice to limit Mohammed 
bin Salman, or MBS's, access within the U.S. Government to his 
official role as Minister of Defense sends an important 
deterrent message in the service of human rights.
    Not treating MBS as de facto head of State implies that the 
Crown Prince would not be safe from prosecution in American 
courts. Examples from recent years indicate that this pressure 
can result in policy changes in the kingdom within certain 
lanes.
    U.S. urging helped lead to reforms passed in 2019 to allow 
women to drive and travel abroad independently and to end 
flogging as a criminal punishment. And as mentioned previously, 
U.S. pressure obtained the release of Loujain al-Hathloul.
    The State Department has encouraged the kingdom's efforts 
to remove hate speech from its school curriculum since 2015. A 
new version was released last year, perhaps in response to 
legislation sponsored by Congressman Wilson.
    One reality check, however, the U.S. recently lost a point 
of leverage with MBS by releasing the unclassified ODNI report 
on the murder of Jamal Khashoggi so early in the 
Administration. A delay in the report's release might have 
yielded additional concessions to the U.S. act.
    In the bilateral relationship, the U.S.'s position is 
arguably stronger than the kingdom's, but the U.S. is still 
wise to weigh the cost of its policy decisions.
    Sanctioning MBS could lead to calls for sanctioning Chinese 
President Xi Jinping, Iranian Supreme Leader Ali Khamenei for 
ordering and overseeing the abuses that make China and Iran No. 
1 and No. 2 respectively on the U.N.'s list of the world's 
worst human rights abusers in 2020, ahead of Saudi Arabia's 
slightly less egregious position as No. 5. Sanctioning the 
Crown Prince is unlikely to create support for replacing him as 
heir apparent.
    After Members of Congress spoke angrily in December 2018 
about MBS's role in the Khashoggi killing, third-party 
pollsters in Saudi Arabia registered rising support for the 
Crown Prince amongst young adults, his base for more than half 
of the population.
    U.S. sanctions are--I'm sorry, U.S. actions targeting 
Mohammed bin Salman personally with the implied aim of 
impacting his chances for ascension could draw retaliation from 
Saudi Arabia on multiple fronts.
    These might include reductions in foreign direct investment 
in the U.S., increased cooperation with China on nuclear 
energy, refusal to normalize with Israel, refusal to contribute 
to expensive regional stabilization projects that will be U.S. 
priorities, support to Bashar al-Assad's government in Syria, 
continuation of the war in Yemen, or undermining of President 
Biden's energy transition agenda.
    It's important to understand that the root of human rights 
abuses perpetrated by Saudi Arabia are issues perceived as 
existential by the increasingly narrow circle of decisionmakers 
in the royal family.
    Whether this perception is accurate or not, if Riyadh's 
calculus indicates that a U.S. act will cause regime 
vulnerability, it will not be met. New methods are necessary. I 
offer four pages of options in my written testimony.
    But for now, I would like to stress two overarching pieces 
that would increase the odds of any U.S. policy actuating 
change in Saudi Arabia.
    First, clearly defined red lines and consequences for 
violating them. U.S. administration bears the baggage of the 
Obama red line on the use of chemical weapons in Syria in 2012, 
but actual tiers of red lines with proportional responses could 
reduce the likelihood of the kingdom calling the U.S.'s bluff.
    Second, an international rise response to Saudi human 
rights violations like the Khashoggi murder. Citizens of 
multiple nations are victims of human rights abuses at the 
hands of Saudi actors, and there was no need for the U.S. 
bilateral relationship to be the sacrificial lamb.
    I propose for your consideration instead an international 
convention against harassment and harm of political dissidents 
abroad that commits all signatories to enact sanctions or take 
other steps together against violators.
    In closing, I'd like to note that the kingdom is a linchpin 
for nearly every U.S. objective in the region and some beyond: 
drawing down our military footprint, expanding and deepening 
Arab-Israeli normalization, preventing the resurgence and 
spread of violent extremist groups, ending the war in Yemen, 
containing Iranian nuclear and regional ambitions, preventing 
adversarial great power domination of the resources and 
waterways of the region, ensuring the flow of energy to fuel 
American lives and industry, stabilizing post-conflict zones so 
populations in countries wracked by war can begin to rebuild 
their lives, and energy transition and decarbonization.
    U.S. goals in the Middle East are best served by remaining 
closely engaged with the government of Saudi Arabia, adopting 
an approach that is part boot camp instructor, part parole 
officer, and part avuncular advisor.
    Demographic trends indicate that Saudi will look very 
different in 10 to 20 years. That could allow for a new 
political model.
    An alienated Saudi Arabia will not get there by itself. It 
is in the U.S. interest to shepherd that potential, lead course 
correction, and build a better partner.
    Thank you.
    [The prepared statement of Ms. Fontenrose follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Deutch. Thank you very much, Ms. Fontenrose.
    Thanks to all of you for your testimony today. I will now 
recognize members for 5 minutes each. Pursuant to House rules, 
all time yielded is for the purposes of questioning our 
witnesses.
    Because of the virtual format of this hearing, I'll 
recognize members by committee seniority, alternating between 
Democrats and Republicans. If you miss your turn, please let 
our staff know and we will circle back to you.
    If you seek recognition, you must unmute your microphone 
and address the chair verbally. We will start and I will yield 
to my friend from New York first, the chairman of the House 
Foreign Affairs Committee, Gregory Meeks, for any questions 
that he may have.
    Chairman Meeks, you are recognized.
    Chairman Meeks. Thank you, Mr. Chairman.
    Let me ask Ms. Nossel, the Trump administration rarely 
raised difficult issues with the Saudis, and the United States 
must grapple with the question of how to address actions by 
partners in countries that conflict with who we are as a 
country, without basic values.
    So given the lack of effective response to public 
statements drawing attention to the Saudi human rights 
violations, what do you view as the most effective way that the 
United States can encourage changes in the Kingdom of Saudi 
Arabia?
    Ms. Nossel. I agree with you that the United States has 
leverage, must use its leverage. I think it's a combination of 
measures both public and private.
    I think it needs to be made clear that the future of this 
relationship depends upon demonstrable durable progress. I 
think it's very important to distinguish between
    [inaudible] really an attempt at some greater support 
amongst the Saudi population and particularly the youth in 
order to stabilize the monarchy and protect against any sort of 
public uprising and tamp down on opposition.
    So taking certain measures to sort of twist the valve and 
release some of the pressure that would otherwise buildup, 
things like allowing women permission to drive, loosening some 
of the strictures of the guardianship system, allowing some 
more access to social media.
    But I think the United States needs to make clear that it 
does not--it's not deceived into thinking that this is a 
liberalization agenda that's simply, you know, on its way and 
it's going to lead inexorably to greater freedom over time.
    I think it's quite the opposite. I think it's a deliberate 
two-pronged strategy to, on the one hand, modernize and satisfy 
some of that public pressure and, you know, perhaps also window 
dressing in terms of global perceptions of the kingdom.
    But that is being paired with this intensifying crackdown 
that is worsening the situation for freedom of expression, 
making life even more difficult and risky for dissidents.
    And so I think the United States needs to be candid about 
sort of seeing through that. I think there's a wish to look at 
the modernization methods as sort of steps in the right 
direction and if we can just encourage more of that we'll be on 
our way.
    I do not think that's accurate. I think we need a candid 
discussion about the imperative of concrete measures. I think 
we need to take steps of our own to ensure that they think--
they recognize we take this--these issues seriously and we're 
prepared to take some risks in the relationship on behalf of 
human rights.
    But we also have to insist that they--that the Saudi 
government commit to tangible steps, and there are all sorts of 
things. They know it's releasing dissidents.
    It's not imprisoning additional people. It's allowing the 
kind of discourse online that was flourishing a few years ago 
but now has been, you know, brutally muzzled and suppressed.
    And so, yes, I think there are a variety of levels. I agree 
with the idea of multilateralizing that pressure and engaging 
others in applying it so it's not just the United States alone.
    I think the Human Rights Council in Geneva can provide an 
important vehicle for that.
    Chairman Meeks. So what about, you know, there have been 
issues and questions going along as far as accountability is 
concerned, particularly in light of the killing of Jamal 
Khashoggi.
    Are there any other actions that you think that you would 
view as appropriate to ensure accountability and/or--and 
positive steps for reform that we--you know, that can be done 
here?
    Ms. Nossel. Yes. So, I mean, I think the two really need to 
be paired. I think when it comes to accountability, the obvious 
glaring gap is with respect MBS himself. I understand the 
dilemma that the Administration faces and the other equities 
that are at work in the relationship.
    But I do think this is a situation where, no matter the 
other measures enacted, some of which I think have been, of 
course, very positive--the application of the Magnitsky 
sanctions, the global Khashoggi ban and the application of that 
to 76 Saudis who were implicated not just in the Khashoggi 
case, but in attacks and plots against other dissidents around 
the world.
    So positive steps, but I think the rubber hits the road 
when it comes to MBS and if the perception is that he's gotten 
off scot free, that unravels the whole notion and concept of 
accountability in this case.
    And so I think it's extremely important that he not be 
welcomed back into diplomatic good graces anytime soon, that if 
and when he is it is in response to concrete, measurable, 
visible, and irreversible steps that we can point to to say, 
you know, this is a different era, and the pressure worked and, 
you know, he's been prompted and the monarchy has been prompted 
to do things it would not otherwise have done.
    I think the measures I referenced in my statement, the 
congressional measures, including Representative Malinowski's 
important proposal to impose a travel ban--you know, that would 
signify that the buck stops where it should stop and not 
several steps down, which is, you know, I think the perception 
in light of where things are today.
    I do think, as you say, it's not just about accountability 
for the Khashoggi murder, as important as that is. I think it 
has to go further with the broader climate of brutal repression 
of free expression. That's what Jamal Khashoggi lived for and, 
ultimately, died for.
    And so if we do not reach beyond, you know, this current 
question of accountability for this horrific heinous deed, you 
know, the legacy and the forces that brought it about will 
survive intact.
    And so I do not think we can count that as a success, and 
that's why I think we need to press for these four systemic 
changes.
    Chairman Meeks. Thank you so very much. I'm out of my--out 
of time. I yield back, Mr. Chairman. Thank you very much.
    Mr. Deutch. Of course. Thank you, Chairman Meeks.
    Next, we'll go to Ranking Member Wilson.
    Mr. Wilson, you're recognized for 5 minutes.
    Mr. Wilson. Thank you very much, Mr. Chairman, and I want 
to thank our witnesses for being here today. An indication of 
how important their testimony is how fortunate we are to have 
Chairman Greg Meeks participate, and so this truly indicates 
how important this issue is.
    And I have a question for each of our three witnesses and 
that is, how strongly is Saudi Arabia motivated to 
differentiate itself from Iran on human rights? On what human 
rights issues do you see the most potential for behavior to 
change due to this motivation?
    Any of the witnesses?
    Dr. Aldosari. I can talk about that. Saudi Arabia is more 
committed to being part of the global movement, basically, of 
modernization, global movement to fight radical Islam or 
radical movement more so than Iran on that front, and this 
presents a leverage for the U.S. and democratic countries to 
utilize, to lead by example, to push for more democratic--back 
for democratic change or transformation in Saudi Arabia.
    Saudi Arabia seems to be keen very much to be a hub for 
international business, to open its--to open the country for 
tourists. These are all things that you do not really see in 
Iran and they're very much, like, a closed off country and 
different in these kinds of issues.
    So I think that leverage, the leverage of global business 
values, global tourism, being part of, you know, those 
democratic countries, these are all leverages that can be used 
to reform certain issues inside Saudi Arabia and more so in 
political reforms to democratic change, which is the only, I 
would say, safeguard against the excesses of abuses that we're 
seeing and witnessing from the--from the State.
    Mr. Wilson. Either other witness any comment? But thank 
you, that was right on point.
    Ms. Fontenrose. I would only--I would add that, according 
to Human Rights Watch, the use of capital punishment declined 
in 2020 to 8 percent of the 2019 numbers, whereas Iran in the 
same year carried out the death penalty 15 times as often as 
did Saudi Arabia.
    This is not what the U.S. can claim credit for, but we 
assess that it was Saudis' need to differentiate itself from 
Iran in ways that are meaningful to Europe that may have played 
a role here.
    And I think that the areas we're seeing the most acceptance 
by Saudi in terms of making changes in human rights are women's 
issues and in terms of religious tolerance and religious 
freedoms.
    We are on the cusp of Saudi normalizing with Israel. It 
will probably be after a change in top leadership, but that 
will happen, and these are places where the U.S. can take 
credit for applying the pressure that has made a difference. 
There's quite a bit of leverage that the U.S. has in this 
relationship: our military presence, the presence of our 
expats.
    We have tens of thousands of people living in Saudi Arabia, 
and they're very aware, to my co-panelist's point about 
economic incentives, that if the U.S. multinational 
corporations pull their people other multinationals will 
follow, and this will very negatively impact Saudi Arabia's 
economic landscape.
    We also have leverage in terms of our court system, which I 
alluded to, our troop presence, arming and equipping of their 
security services, our intelligence sharing. There are many 
levers the U.S. can play with here.
    Mr. Wilson. And I--yes.
    Ms. Nossel. Yes. I mean, just to add, briefly, I think the 
Saudi participation in U.N. human rights mechanisms and their 
seeking out of a seat on the Human Rights Council four times is 
indicative of what my colleagues are talking about, which is 
this desire to be recognized on the world stage, to win 
diplomatic acceptance, to be welcomed in the corridors of 
power, you know, which is something that operates very 
different--you do not see that with Iran.
    They have, you know, positioned themselves as an 
international outlier with certain alliances but not--
certainly, not in the good graces of the West. And I think 
Saudi is very much seeking that acceptance and it is a crucial 
point of leverage.
    I think MBS is emblematic of that and, you know, in a very 
conflicted way. But it's clear he wants to be part of the club 
on the global stage, and so making very explicit what the 
conditions and imperatives are, you know, if he's ever going to 
attain that status, I think, is important.
    You know, I think my colleagues are correct in terms of 
identifying areas like women's rights, certain religious 
freedoms, you know, where there's more leeway. These legal and 
judicial reforms that have now been proposed to extend right to 
counsel, greater transparency in legal proceedings are 
important.
    But there is a fundamental problem, though, which is that 
this monarchy is shaky and MBS's ascension is shaky, and as 
long as that remains true, ultimately, their willingness to 
tolerate dissent is not going to--is going to be very limited 
because he recognizes that, you know, twisting the valve and 
allowing people to speak out and question what is being done 
and the decisions that are being taken, the legitimacy of his 
role, whether he's qualified to be in the position he's in, you 
know, all of those debates are existential for him.
    And so I think we have to be sort of forthright that, yes, 
making promises--progress on women's rights is essential. You 
know, it could ultimately burgeon into something wider.
    But at the same time, you know, there is that kind of 
fundamental disconnect between sort of the instability of the 
regime and the fragility of it and the unwillingness to 
tolerate dissent.
    Mr. Wilson. Thank you all, and I yield back.
    Mr. Deutch. Thank you very much, Mr. Wilson.
    Next, we will go to Mr. Connolly. Mr. Connolly, I said 
earlier I wasn't--I wasn't sure that you were on. But let me 
just say, again, that the work that we're doing on this--on so 
many issues but on this--on this topic specifically is 
informed, in large part, by your advocacy, your leadership, and 
your work on behalf of Jamal Khashoggi and your other 
constituents, protecting Saudi dissidents in your legislation. 
Thank you for all that you do for us and for the focus on human 
rights around the world, in Saudi Arabia in particular.
    And I will now recognize you for 5 minutes.
    Mr. Connolly. Mr. Deutch, thank you so much. What gracious 
remarks and what a great way to begin my day. So thank you so 
much, and thank you for having this hearing.
    Ms. Fontenrose, I want to--I want to use two words here. 
One is impunity and the other is leverage. We just heard how 
shaky, in a sense, the monarchy is and, yet we look at a Saudi 
government that, I think, for decades has operated with 
impunity with respect to the United States relationship.
    They know that the oil relationship, the arms sale 
relationship, the strategic posture of Saudi Arabia as a, you 
know, a counter pressure point to the Iranians and to giving 
the nod now and then to the Israeli relationship are all so 
important that we're going to have to overlook bad behavior.
    And, you know, for me, Chairman Deutch just mentioned, of 
course, the unbelievable and despicable murder of my 
constituent, an American resident, Jamal Khashoggi, and the 
dismemberment of it, and the word impunity comes to mind.
    The fact that anyone would even think to plan such a thing 
would suggest, I'm pretty sure we're going to get away with it, 
and, frankly, in the Trump administration, they did.
    And I am worried that the Biden Administration has made a 
calculated assessment that says the relationship is too 
important to just junk it, and I, certainly, do not know that 
we--that's our only option.
    So how do we counter the impunity we're dealing with and 
could we use the fact that there are--you know, there's 
instability in the royal family, including a lot of resentment 
against the Crown Prince.
    Could we use that to advantage to make him an unacceptable 
choice as heir to the throne and use our leverage for once in a 
meaningful and significant way? Or is that a stretch too far, 
from your point of view?
    I mean, sanctions and travel bans and all that are useful. 
But I do not know that they get to the impunity I am talking 
about.
    Your observations?
    Ms. Fontenrose. I agree with your assessment on the 
immunity and it really is at the very top levels. We hear quite 
often from our interlocutors at senior levels and below in 
Saudi Arabia that they understand that this is a problem for 
us. This is, certainly, not an immunity that we see across the 
board in the Saudi government.
    But I do think we have to be careful, because at a certain 
point when we talk about using our leverage to influence 
decisionmaking on succession in Saudi Arabia, we start to sound 
like we're talking about regime change, and that's not a game 
that the U.S. wants to get into again. We do not tend to do it 
very well.
    But there are some ways that we can change some of the 
decisionmaking at the top that would impact this impunity. 
Mohammed bin Salman is surrounded by an echo chamber right now.
    He only hears the good news, and they continue to sponsor 
campaigns of disinformation and misinformation globally and 
here that are intended to spread a narrative about how 
wonderful things are in Saudi, how suitable he is as a ruler.
    And while that's not all entirely false, it's certainly an 
indication that that impunity remains and that we have not 
really seen a mea culpa that we're looking for.
    Part of this is his inner circle. There are a lot of wise 
advisors in Saudi Arabia who were replaced in recent years. 
These were people we trusted, people we worked with for 
decades, and people who understand both how the global system 
works and understand America's values and our priorities.
    Those folks aren't there in the numbers we'd like to see, 
and one of my colleagues already mentioned a specific person, 
Saud al-Qahtani, who both the intelligence community and the 
policy community assessed was instrumental in some of the 
negative decisions that came out of the kingdom, not only the 
Jamal Khashoggi murder, which we assess he orchestrated and 
masterminded, but also in many other--many other negative 
decisions like civilian targeting in Yemen, like the standoffs 
with Canada and with Germany, like the interrogations in the 
Ritz.
    Saud al-Qahtani is sort of the Oddjob to Mohammed bin 
Salman's Goldfinger, and he tells him what he wants to hear. He 
keeps him very safe. He is not loyal to any other member of the 
royal family or to any other business interests because he does 
not come from a prominent family or a competing branch of the 
royal family, and that makes him incredibly loyal and, 
therefore, incredibly dangerous to our interests.
    He was removed from his place at the elbow of the Crown 
Prince previously, but as my colleague mentioned, when he went 
through a court proceeding he was found not guilty.
    At the time, I wrote an article saying that this finding of 
him as not guilty was actually a dent in the U.S.-Saudi 
relationship and that we would take it quite seriously. He is 
someone we need to make sure is removed from the decisionmaking 
circle in Saudi Arabia, and if that means stating a red line, 
then that means stating a red line.
    Saudi, at one point, even tried to tell us that he was 
dead. I mean, the disinformation to protect his role as the 
Mohammed bin Salman whisperer has been notable.
    And there are things we could do. We could ask for some of 
our favorite interlocutors to be reinStated. We could embed 
advisors, much as we do in many other nations, to help with the 
drafting of legislation that protects human rights.
    We can encourage them to build out their National Security 
Agency, which is actually their equivalent of our NSC, which 
they made a real effort to build, but because of stovepipes and 
because of personality politics in Saudi Arabia, it's really 
just been this sort of administrative function.
    We can work with them, hold their hand to say this is how 
you do interagency collaboration, interagency coordination of 
policy in such a way that only vetted ideas reach your senior 
decisionmaker, and not these crazy ideas that come from people 
without the policy or the international affairs knowledge to be 
making these kinds of recommendations.
    So there's some very proactive things.
    Mr. Connolly. Very helpful. Unfortunately, my time is up 
and the chairman has been gracious in allowing us to continue. 
But I think, bottom line, the United States needs to approach 
this relationship with boldness and fortitude.
    And thank you for your suggestions. Very helpful.
    Thank you, Mr. Chairman.
    Mr. Deutch. Thank you, Mr. Connolly.
    Mr. Perry, you're recognized for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman. I'm just curious, based 
on my good friend Representative Connolly's questioning for Ms. 
Fontenrose, are there--are there better options? I mean, is 
there any realistic option other than MBS regarding the 
leadership in Saudi Arabia?
    I mean, is there any reason for us to really be--I mean, do 
we have any other option or is that the--is that the best it's 
going to get?
    Ms. Fontenrose. The issue, really, is that this branch of 
the royal family has been consolidating power for quite some 
time.
    Previously, Saudi would share--would power share across 
branches of the royal family. But in recent years, this has 
gone almost entirely to the branch of the family headed by 
current King Salman.
    So what this means is that when you look around for other 
options, you're looking at people who do not have a lot of 
decisionmaking power right now.
    You're also looking at the fact that Mohammed bin Salman 
has consolidated his control over all of the security services 
and over the finances of most of the royal princes. So if they 
were to, perhaps, speak out against him, their families could 
potentially be destitute and they could, perhaps, find 
themselves in jail.
    So we have to ask ourselves are there people we would be 
willing to back in any way, not only in a, you know, to--as a 
potential replacement for Mohammed bin Salman, but also what 
would that do to Saudi politics writ large?
    What would that do to the power sharing among the branches 
of the royal family? Are we willing to talk about regime change 
in any realistic way?
    Do we even have the legal authority to do that? And would 
we be willing to ask Saudi friends to put their own lives and 
financial security at risk to spearhead something like that 
conversation?
    We have realized in recent years that national sovereignty 
and national succession are places that we can have opinions 
on, but it's best that we not actually put our finger on.
    Mr. Perry. Yes. So it sounds to me like whether we like it 
or not, agree with him or not, that whether he's moving quickly 
enough or not or whatever our disagreements are, we're going to 
have to work with him and resign ourselves to that fact.
    Does he--does he particularly--could he particularly be 
sensitive to international condemnation, condemnation from the 
United States regarding Khashoggi or anybody else? And just as 
a curiosity of mine, what is the--what is his viewpoint or the 
ruling faction's viewpoint on the Muslim Brotherhood in Saudi 
Arabia?
    Ms. Fontenrose. Mohammed bin Salman is confused by why the 
U.S. and the Western world are so upset about the Khashoggi 
killing. They understand that the way it was conducted is 
heinous. Most Saudis are as appalled as we are.
    But I will quote a conversation I had with a very senior 
Saudi representative who said, ``When I speak to Saudis about 
the Khashoggi murder, they ask, why are they so upset about 
this when Jeffrey Epstein died in government custody?''
    That causes all of us to kind of drop our jaws but that is 
very realistically--it's a State-controlled media and, as I 
mentioned, there is an echo chamber.
    So while Mohammed bin Salman is very sensitive to the 
discussions of Khashoggi. he does believe that this is an issue 
that can be dealt with and that it will not necessarily create 
a dent in the U.S.-Saudi relationship if they can just do 
enough other things, but none of those things that are related 
to human rights.
    You'll notice that they have done quite a bit in terms of 
climate change just since inauguration. They're really trying 
to be a great U.S. partner and kind of erase this memory.
    But to my co-panelist's point, there are things we could be 
doing to press the human rights issue and make it more directly 
aligned.
    To your question on the Muslim Brotherhood, the Saudi 
regime is extremely opposed to the Muslim Brotherhood. They do 
consider the Brotherhood an existential threat to regime 
stability and to the royal family, writ large.
    So the Brotherhood is probably their number-one threat, I 
would say, equal to and in some cases above Iran.
    Mr. Perry. Yes, I think that's an important point, and I 
think there's a connection with Khashoggi in that regard as 
well. But I do agree with your point, you know, regarding the 
other measures that Saudi has taken. I'm thinking just most 
recently regarding COVAX.
    But as you also Stated, it does not--it does not absolve 
them of--I mean, I think they're No. 5 on the list of human 
rights abusers, you know, just downstream from China and Iran, 
essentially, North Korea, et cetera.
    So they're--you know, they've got a lot of work to do and I 
think that we absolutely need to make that a focal point. At 
the same time, I think that we have very, very difficult issues 
to deal with in Iran and China and so on and so forth and I do 
not want to see the committee--and this is not--you know, this 
is not your bailiwick, but completely focused on Saudi Arabia 
here.
    But I did listen to some of the other things that you had 
said that we could leverage regarding Saudi Arabia's human 
rights abuses, and I think we need to do that on every single 
occasion and keep pressing.
    And while we probably acknowledge things like the good work 
on COVAX, we absolutely need to bring up the point every single 
time that the human rights abuses are unacceptable and that 
we're going to keep highlighting them and we're going to keep 
pursuing them.
    I think you've given us a pretty good list. So I do not 
want to talk for the sake of talking. I appreciate your time 
here and everybody's time here.
    And I yield back the balance of my time. Thank you.
    Mr. Deutch. Thank you, Representative Perry.
    Mr. Cicilline, you're recognized for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman. I really want to 
thank you for your leadership and calling this really important 
hearing and also acknowledge the incredible leadership of Mr. 
Connolly for so long on this issue.
    And I think as you described in your opening remarks, this 
is a challenge for us to ensure that we have foreign policy 
that reflects our values, and I think when you look at the 
backsliding of democracy and the rise of authoritarian 
leadership around the world, maybe this is no--there's no place 
where it's more clear than here in Saudi Arabia how challenging 
this is.
    But when you look at the age of the Saudi population under 
the age of 25--half of the population is in that age group--and 
the looming ascent of Crown Prince Mohammed bin Salman, this is 
a very important time for us to figure out how we both hold the 
Saudis accountable for their human rights record but also 
ensure that we can maintain a productive relationship, and I 
think this is a great challenge.
    Ms. Nossel, I want to begin with you and that is--my first 
question is, you know, how urgent is this issue with respect to 
the suppression of dissent or the inability to criticize the 
kingdom in any way for the average Saudi?
    Is it a real issue and is it bubbling up to be something 
that could cause real change in the kingdom?
    And second part of the question is, can you recommend any 
specific achievable kind of free expression reforms that the 
U.S. might be able to press for in its engagement with the 
Saudis?
    Ms. Nossel. Sure. You know, I would say it's hard to know 
exactly. Of course, you know, there are no really reliable 
public opinion polls that are conducted within Saudi Arabia.
    You know, there isn't free media. There's repression online 
such that, you know, it's hard to reliably gauge, you know, how 
important this issue is to the man on the street.
    And I think the strategy that MBS has undertaken is to 
address certain issues--the ban on driving being at the top of 
the list, the loosening of the guardianship restrictions--that 
have sort of across the board support.
    That women's rights agenda is something that cuts across 
ideology, religious sectarianism, geography within Saudi 
Arabia. It has a lot of support in many quarters, and so I 
think that's why we have seen progress in that area.
    And I think, you know, the strategy really is to take other 
steps that will appease a kind of pent-up demand for more 
freedom. But in order to be able to sustain this very intense 
type control over expression and dissent that it's a kind of a 
bargain.
    I think it's important to recognize that. It's not sort of 
a progression where one will inexorably lead to the other. You 
know, first you address women's rights and then there will be 
liberalization when it comes to free expression and dissent.
    I think it's actually the two issues play off one another 
and that, you know, in a sense, the Crown Prince is buying 
himself some support to continue this crackdown and, you know, 
when it comes to certain officials who are more----
    Mr. Cicilline. And I--no, I appreciate that. I just want to 
try to get in one more question. If you could--I'm sorry, I 
didn't want to interrupt you but I want to try to get in one 
more question.
    Ms. Nossel. Sure.
    Mr. Cicilline. And that is, you know, there's been a lot of 
reporting that's--and this is for Ms. Fontenrose--there's been 
a lot of reporting that Saudi Arabia is using hacking and 
social media surveillance to spy on and intimidate dissidents.
    In November 2019, U.S. authorities charged two former 
Twitter employees for spying on users on behalf of Saudi 
Arabia.
    And so, Ms. Fontenrose, how does technology fit into Saudi 
efforts to harass and intimidate activists and political 
opponents, and how can Congress ensure U.S. firms and 
technology are not being used in these efforts?
    Ms. Fontenrose. Technology is the primary tool in tracking 
and suppressing opposition, and the person I mentioned, Saud 
al-Qahtani, was instrumental in building Saudi Arabia's arsenal 
of these technological tools and continues to be.
    And we also note that, you know, Saudi Arabia went to the 
level of even harassing the CEO of a major U.S. corporation 
with this--with this technique.
    The way that this can be handled is already underway. 
Congress and the U.S. Government and most of the social media 
companies are involved in really in-depth discussions about 
where the limits of their authorities are and how much they can 
actually do in terms of personal freedom.
    One of the challenges is that since many of these companies 
are U.S. based, we allow quite a bit more in terms of personal 
freedom than some of these other countries would. If these--if 
these companies, for instance, were North Korean, they would 
probably be able to put quite a bit of limitation on their 
usage.
    But we have a tougher time with that conversation and 
that's what we're trying to work out right now. State 
Department is really engaged in these discussions with the--
with the community.
    We could, perhaps, sanction some of the organizations that 
do this work in Saudi Arabia. We have done that before. There 
was an organization--the acronym was CSMARC--that was involved 
in the murder of Jamal Khashoggi, and we said we would sanction 
the organization. We made great moves to do it, and Saudi 
Arabia eventually just shut the whole organization down.
    But we know that some of those roles have been 
reconstituted, and if we sanction those it makes it--it makes 
it then impossible for U.S. technology companies to work with 
them or for them to contract with providers of specialized 
capabilities.
    So that might be one step. It's sort of a simple step. But 
until we get to the bottom of what the government nexus with 
private sector is in terms of what we're allowed to allow and 
prohibit, that might be one of the--one of the easier ways to 
immediately address it.
    Mr. Cicilline. Thank you so much.
    And with that, my time is expired. Thank you, Mr. Chairman. 
I yield back.
    Mr. Deutch. Thank you, Mr. Cicilline.
    Mr. Mast, you are recognized for 5 minutes.
    Mr. Mast. Thank you, Mr. Chairman. I appreciate you 
recognizing me.
    I've enjoyed hearing the debate and the conversation today. 
I think it's important. It's important to recognize important 
partners in every region that we work with. But it's also 
important for us as a nation and for our citizens who we are 
representative of to never be allowed to be naive as to who it 
is that we're working with, and then we make an honest decision 
about how and where we will work with those individuals.
    And so it's in that that I'm going to bring attention 
just--and I will not have any questions today. I just want to 
bring attention to something that a number of us have made 
requests for and worked on as it relates to Saudi Arabia and 
bring it to--maybe to the attention of some of the other 
members of our committee who have not been on this, and ask for 
your consideration on this.
    In the previous Congress, we did write a letter to Attorney 
General Barr to specifically express our concerns over a 
decision, or more than one decision, to assert what's known as 
the State secrets privilege on litigation brought by victims of 
September 11 attacks and their families against the Kingdom of 
Saudi Arabia.
    I would like to, basically, ask that all members of this 
committee look into what is being considered under that State 
secrets privilege and that we write to Merrick Garland about 
the exact same issue, making sure that it is transparent for 
all Americans, not just what has gone on with the situation 
like Khashoggi but what has gone on that has perpetuated the 
United States of America to be at war for 20 years--you know, 
war that has, you know, began on our soil, has affected many of 
us personally, me personally, in war, many of my friends and 
family, and that we make every single effort to have very true 
and real transparency about all of those that we are working 
with.
    So in that, Mr. Chairman, I will yield back my time. I know 
this is something that you have worked on as well. But just to 
say I would ask for the support of members of this committee as 
we sit here and discuss Saudi Arabia to also not lose sight of 
what is still being kept secret about September 11th to those 
that were most intimately affected by it.
    And in that, Mr. Chairman, I yield back.
    Mr. Deutch. I thank you for your comments, Mr. Mast.
    And we'll yield 5 minutes now to Mr. Malinowski.
    [No response.]
    Mr. Deutch. Mr. Malinowski, we're having some trouble with 
your sound. Why do not--why do not we--why do not we give you a 
minute to work with staff to try to square that away? And, you 
know, we cannot hear you.
    If it's OK with you, Mr. Malinowski, we'll go to Ms. 
Manning, and then we'll come back to you. Thank you very much.
    Ms. Manning, you're recognized for 5 minutes.
    Ms. Manning. Thank you, Mr. Chairman, for holding this 
hearing and thank you to all the witnesses. I'm assuming you 
can hear me.
    OK, great. Thank you to all the witnesses for their 
outstanding testimony.
    Ms. Fontenrose, you have articulated so clearly the 
complexity of our relationship with Saudi Arabia, including the 
importance of Saudi Arabia in the balance of power in the 
region and in achieving some critical U.S. goals, and your 
suggestion of setting clear red lines with actions for crossing 
those lines and the importance of acting in concert with the 
international community against human rights violations are all 
well taken, as well as your suggestion that the U.S. act as an 
avuncular advisor, which suggests a wonderful balanced 
approach.
    I'm interested in whether you can talk to us about whether 
there are carrots we can use in addition to sticks.
    Ms. Fontenrose. Thank you, Congresswoman.
    Yes, there absolutely are, and I think that's incredibly 
important. If we only lead with sticks, then we risk losing 
some of the loyalty we have from Saudi Arabia to competitors, 
whether adversarial or friendly, whether economic or military.
    So in terms of some of the--some of the carrots, things 
like securing Saudi Arabia against the attacks they're 
receiving from Iran-backed proxies, the very immediate carrot 
are--the end of our support for the coalition in Yemen did send 
a clear message to Mohammed bin Salman that there needs to be 
an end--a political end to the war in Yemen very quickly.
    But it also did embolden greater kinetic action on the part 
of the Houthis. If we were to offer Saudi Arabia assistance 
with resisting that--those attacks, that is a carrot.
    They are looking for ways to push back that will not anger 
our Congress. They are very aware that if they use air strikes 
there will be condemnation from the Hill.
    So what are other ways that we can offer them? We can offer 
them cyber assistance. We can offer them electronic warfare 
assistance in addressing the guidance systems or the launch 
systems of the missiles and rockets that are coming at them.
    We can offer them assistance with assessing their 
vulnerability to drones and, perhaps, assistance in identifying 
which counter-UAS technologies might be most useful for them so 
they aren't just buying haphazardly from people pitching to 
them and acquiring technology that, frankly, will not be useful 
against the threat.
    We can work on intelligence sharing and identifying where 
those attacks are coming from, and then if the Administration 
really wants to give them a carrot, the Administration will 
talk to Congress and say, we have shared information on where 
these attacks are coming from.
    We have told the Saudis it is OK for them to strike these 
launchers or these missile depots and we would appreciate it if 
you would not condemn them for these particular targeted 
strikes against imminent threats.
    So there's some very, very--not very difficult and very 
immediate things we can do that are carrots. Other carrots 
include things like welcoming them back more robustly into the 
international economic community.
    They are really trying to rebuild their previous economic 
power, and our insistence that they be treated as a pariah has 
made the international finance community a little bit hesitant 
to do that.
    They would, certainly, welcome that sort of--that sort of 
welcome into this conversation again, welcome back into that 
more robustly.
    That's not something we necessarily have to do, but that 
definitely would be a carrot and that's simply diplomatic. That 
does not require policy changes. It does not require 
legislation. It does not require resourcing.
    Other carrots we can give them are consulting with them on 
the JCPOA. Yes, we have said that we would do that, but are we 
really? Really taking into account their concerns about 
regional activities and missile programs from Iran would be a 
carrot for sure.
    Ms. Manning. Great. Let me ask you one more question. Are 
there steps that the U.S. can take to encourage the 
normalization of the relationship between Saudi Arabia and 
Israel to bring them into the Abrahamic Accords?
    Ms. Fontenrose. I do not even think we have to do much 
more. I think Mohammed bin Salman is on board with this. We are 
dealing with the fact that the current king of Saudi Arabia, 
who has been a wonderful partner to the U.S., is opposed to 
normalization until there is a political solution that is 
acceptable to the Palestinian camp.
    And it's my understanding that as long as King Salman is 
king, that that stance will stay solid. That is--that is, 
essentially a core value in Saudi Arabia and that we will see 
more direct movement on normalization either if Mohammed bin 
Salman is made prime minister or if there is--if there's a 
succession, and Mohammed bin Salman were to take the throne. 
Not necessarily upon the passing of King Salman, even prior.
    But I think that's where we're going to see it. I think 
pressure before then we'll still run up against King Salman's 
personal beliefs and personal wishes, and we might not want to 
press that from a long-standing great partner.
    But in the meantime, we can, certainly, work with Saudi on 
some things that they can do to show that normalization is 
coming. One is messaging to their own people. There's a big 
public diplomacy perception issue in much of the Arab world 
about normalization.
    They can start working on that right away. They can also 
start working on small economic agreements. They can start 
working on technical cooperation in areas of missile defense or 
maritime security.
    There are things they can do that are steps toward 
normalization without officially making that one of their 
policies. That would help set the stage, would really put them 
in place, and then normalization would almost look like a 
logical completion of a process.
    Ms. Manning. Thanks so much. My time is expired. I yield 
back.
    Mr. Deutch. Thank you, Ms. Manning.
    Before going to you, Mr. Burchett, we're going to take just 
a quick moment and see if Mr. Malinowski's audio works.
    [Pause.]
    Mr. Deutch. No, unfortunately not. Maybe we can----
    Mr. Burchett. Mr. Chairman, if he comes back on just stop 
me. It's good.
    Mr. Deutch. We will not send you--hold on 1 second, Mr. 
Burchett.
    Mr. Malinowski, I'll try one more time.
    Mr. Burchett. How about that?
    Mr. Deutch. Great. Okay. Great. So, Mr. Burchett, we're 
going to you. Then we'll come back to Mr. Malinowski and----
    Mr. Burchett. Mr. Chairman, in bipartisan nature, let's go 
back to Mr. Malinowski. He had to skip he--and I'm cool with 
that, Okay?
    Mr. Deutch. That's actually very kind of you. But we went 
to Ms. Manning, who's a Democrat, and keeping with our true 
bipartisanship nature, we're going to come back to you now, if 
you're----
    Mr. Burchett. All right. Well, I tried, brother. I tried. I 
apologize.
    All right. Ms. Fontenrose, you mentioned in your testimony 
that we released Khashoggi reports too soon and missed out on 
additional human rights concessions. Which concessions do you 
think we missed out on?
    Ms. Fontenrose. It's my understanding, from speaking with 
colleagues inside the kingdom, that there was great concern in 
Saudi Arabia that the report might include incriminating 
information, and so they were keen to be very conciliatory 
prior to the release of the report.
    So it's my feeling that had the report release been delayed 
we may have actually had leverage to make additional requests 
of Saudi Arabia. So we succeeded in the release of Loujain al-
Hathloul, but she has--she has peers who are still imprisoned, 
and it might have been possible to get some movement on those 
specifically.
    Mr. Burchett. Okay. And for the committee, is there any 
internal pressure on Saudi Arabia to improve its human rights 
practices? And that's out to anybody.
    Anyone? Ms. Fontenrose, do you want to try that?
    Ms. Fontenrose. I apologize. I thought that question was 
for the committee. And can you repeat it really quickly?
    Mr. Burchett. It was, but since you're a part of it, is 
there any internal pressure on Saudi Arabia to improve its 
human rights practices?
    Ms. Fontenrose. It's a great question because there is, 
certainly, pressure from the public who does believe that human 
rights improvements would improve their own lives.
    But that public has no leverage in Saudi Arabia. There is 
no mechanism by which they can express themselves in a way that 
will create policy change but, potentially, not endanger them 
as individuals.
    So, unfortunately, the pressure--the desire is there, but 
the pressure is not effective.
    Mr. Burchett. Okay. And this is for of the committee, so 
you all get ready to get on your buzzers. Do you think that 
Saudi Arabia will develop closer ties with our adversaries, 
such as Russia and China, because the U.S. pressured them on 
human rights?
    Mr. Deutch. Mr. Burchett, I think you're referring to the 
committee of witnesses. Is that correct?
    Mr. Burchett. Yes. Yes, I'm telling the witnesses. I'm 
sorry. Not our committee. I do not want to hear any of you all. 
I'm tired of hearing you all. So go ahead.
    Ms. Fontenrose. I can speak to that. The answer is 
absolutely yes. We are the priority partner for Saudi Arabia. 
They are very clear about that, and we have no reason to doubt 
that.
    But it is definitely true that Russia and China bring their 
partnership without human rights strings attached. Russia would 
love to replace the U.S. as the hub for security relationships 
in the region.
    They have floated a proposal to this--to this effect, that 
they continue to socialize, including in the recent visit of 
Lavrov to the--to Riyadh. And China is very happy with the U.S. 
being the security guarantor and locking down its economic 
interests.
    We would not expect China to come in as a guarantor of 
Saudi security or a protector of waterways or the like, but 
they'll certainly replace us as a vendor of arms and they'll 
also sell those arms to Saudis' enemies, which, you know, if 
you let Russia and China lead the way in terms of military 
technology in the region, you definitely have the kind of arms 
race that could lead to escalation.
    So yes, it's very real. Saudi would not like to go that 
way. They do not choose to go that way. But they do have other 
options.
    Mr. Burchett. Thank you, Mr. Chairman. Oh, go ahead.
    Ms. Nossel. No, I was just going to add briefly, I think 
that's true but I think it should not be overStated. I think 
particularly when it comes to the rivalry with Iran, the 
partnership with the U.S. is not replaceable by either Russia 
or China.
    They're not going to serve as that kind of bulwark against 
their Iranian nuclear ambitions and regional ambitions. And so 
I think that the degree of preference for the U.S. is, we 
should recognize, is strong and not be too quick to assume that 
any antagonism is going to lead them into the arms of Beijing 
or Moscow.
    Mr. Burchett. Right. I've got--Mr. Chairman, I yield back 
the remainder of my time Mr. Malinowski, if he figured out his 
computer. If he does not, tell him to get a 13-year-old 
daughter because she will explain the--everything you're doing 
wrong with your computer and embarrass you continuously with 
it.
    So I yield.
    Mr. Deutch. Thank you. Thank you, Mr. Burchett.
    Mr. Malinowski, we are ready to try again.
    Mr. Malinowski. Yes. How's this?
    Mr. Deutch. We can hear you. Does your camera work?
    Mr. Malinowski. It should be. Yes.
    Mr. Deutch. Oh. Does everyone else see Mr. Malinowski? Only 
I do not?
    Mr. Malinowski. I see Gerry----
    Mr. Deutch. Oh, sorry. That's apparently--that's a problem 
on my end. Mr. Malinowski, I want to also, as I acknowledge 
you, take just a moment to thank you for your principled and 
strong leadership on human rights, especially on human rights 
in Saudi Arabia. We're grateful for your leadership, and you're 
recognized for 5 minutes.
    Mr. Malinowski. Thank you so much, and I think my daughter 
would probably give us the advice not to be using WebEx. But 
we'll set that aside for a moment.
    So look, I want to just jump right into what's been a 
really interesting exchange about leverage and our interests, 
and to start with Ms. Fontenrose because in your testimony you 
made a proposal that is very consistent with what many of us 
have been advocating and with what the Biden Administration has 
actually begun to do, and that is to draw a red line around 
what could be called transnational repression, authoritarian 
States such as Saudi Arabia reaching beyond their borders into 
the United States, into democratic countries in Europe, into 
Canada, to pursue their enemies, which is essentially what 
happened in the Khashoggi case but also others.
    At the same time, you expressed some concern about doing 
too much to go after the main author of the killing of 
Khashoggi, and I wanted to challenge you a little bit about an 
apparent contradiction between those two positions.
    I understand that there are limits to what the United 
States can do to challenge Saudi Arabia in terms of human 
rights conditions within the country. I want to try. I'm 
passionate about it.
    But that is, I think, somewhat different from the Khashoggi 
case. The Khashoggi case, yes, it's a human rights case. But it 
was also--it was also something that can be considered a 
hostile act against a resident of the United States of America.
    And if we're going to have an actual red line, as you 
suggested, if we are going to build a coalition, an alliance of 
democratic States, making clear that we have zero tolerance for 
that kind of activity, do not we undercut that message if we 
say that a relationship with a particular individual in Saudi 
Arabia is too important to hold that individual accountable in 
any way?
    Ms. Fontenrose. Congressman, I do not think that what we'd 
be saying is that the relationship with that individual is too 
important. We'd be saying that the relationship with the 
country is too important and we'd be acknowledging that because 
of the potential for retaliation by the individual at the top 
for certain actions, it would be in better serving U.S. 
interests not to take certain methods for responding to the 
Khashoggi murder.
    We are not without options. There are many, many options 
for U.S. response. So the issue is just assessing which of 
these will lead to the advancement of U.S. interests long term, 
and which would look like they were getting at Mohammed bin 
Salman but would, in fact, be pyrrhic victories.
    And so things like sanctioning him would definitely lead to 
retaliation against U.S. interests in many sectors, as I 
mentioned, even things like energy transition, and certainly it 
would cripple our ability to respond to post-conflict 
stabilization needs across the region. We do really count on 
Saudi Arabia writing checks. In 2018, the current coordinator 
for the Middle East on Biden's team at the NSC asked Saudi 
Arabia for $100 million to use in Syria.
    Without that money, we couldn't have accomplished some of 
what we needed--we needed to do there. And I guarantee you that 
Saudi Arabia is already considering the fact that that person 
will very likely come back and ask for more.
    We also are going to see needs in Iraq and in Lebanon, 
certainly, in Yemen and Libya. And without one of the largest 
powers in the region in terms of resources and political 
weight, that will be very difficult to do on our own unless we 
want to get far more involved in these conflicts. And in the 
short run----
    Mr. Malinowski. Now, I am just going to--sorry, reclaiming 
my time a little bit. What I worry about is that, I mean, we 
have sanctioned the country.
    We just haven't done anything about the individual, and by 
sanction I'm not--I'm not in favor of economic sanctions 
against MBS for some of the reasons that you've laid out.
    What we have proposed is something that falls short of 
that. But I worry about the danger of reinforcing the official 
Saudi line, which is that the murder of Jamal Khashoggi was a 
crime but it was committed by everybody other than MBS.
    They have sanctioned the same henchmen, for the most part, 
that we have sanctioned in the past, and I do not want to 
reinforce that lie.
    And I do not have that much time left, but I think that a 
lot of the steps that you have suggested Saudi Arabia might 
take to harm our interests if we take the step would also be 
incredibly harmful to Saudi interests.
    Yes, China can sell them weapons. Yes, Russia can run 
around and propose regional security arrangements in which 
Russia takes part. But it's absolutely crystal clear that only 
the United States protect Saudi Arabia. Chinese weapons are 
useless to them because their own military is not what defends 
them.
    It is the United States military that defends them if 
anything were to happen, an Iranian attack on Gulf shipping or 
on Saudi Arabia itself. The Saudi military would be asked to 
stand down, and the United States would be protecting the king, 
and they know that.
    So I wish we could continue the exchange. But I'm out of 
time and I yield back. Thank you.
    Mr. Deutch. Thank you, Mr. Malinowski.
    Mr. Steube, you're recognized.
    Mr. Steube. Thank you, Mr. Chairman. My questions are for 
Ms. Fontenrose. What posture should the U.S. take in its public 
statements about human rights and political freedoms in Saudi 
Arabia?
    Ms. Fontenrose. Excellent question. It actually allows us 
to followup a bit on what Congressman Malinowski was raising as 
well.
    I think it's very important that the U.S. take a very 
public posture on the core value of human rights, and I think 
this administration has already kicked that off very well by 
stating that.
    On the flip side, I think that conversations about 
reactions to it need to happen privately because of the 
psychology of Mohammed bin Salman, and I encourage you to ask 
for briefings from your intelligence--representing your 
intelligence community liaisons on this if you'd like.
    This is best handled in a way that does not make him look 
like a public pariah. But the standards and the red lines 
should be Stated publicly, and America's insistence on these 
being upheld should be Stated publicly. There needs to be sort 
of this establishment of accountability.
    And then the methods by which we are willing to assist for 
the--for the red lines we're drawing in terms of what the 
punishments will be can be private discussions.
    Mr. Steube. Well, and kind of related to that, your policy 
recommendations include trying to have a positive influence on 
Saudi leaders through our engagement.
    Are there examples of ways in which our engagement with 
Saudi political or military leaders has had a positive impact 
on promoting America's values and policies?
    Ms. Fontenrose. Absolutely. Specifically on military, and 
this is a very tactical example, but the U.N. recorded a 
decrease in the loss of life by civilians in Yemen between 2017 
and 2019 that we think is directly correlated to the advisement 
of our U.S. military to the cell that does deconfliction 
targeting in Yemen.
    We also know, as you mentioned, about U.S. pressure 
resulting in the release of Loujain al-Hathloul, and I 
mentioned in my testimony that the Saudi--the assistance by the 
State Department and the pressure from Congress that resulted 
in changes to Saudi curriculum that is used globally worldwide.
    I think there are also additional ways that the U.S. can 
apply pressure diplomatically that would be well received. One 
is definitely staying on top of the call for the release of 
additional activists and dissidents.
    There are also other--we could ask, as I mentioned, for 
embedding of advisors into Saudi ministries to work on 
legislation, to work on the drafting of new laws and then 
codifying. We can recommend supporting them in their 
digitization efforts.
    We have--we have placed pressure on them in terms of 
improving their human rights record, but we haven't really 
given them tools or said specifically how to do that. Saudi is 
really good about responding to specific requests, not so good 
about responding to generic requests, often because they simply 
do not know where to start.
    So if we provide some of the capacity and we say, all 
right, now that you've said Insha'Allah and sort of shaking 
your head and said you're willing to come along, we're going to 
show you exactly how to get there and we're going to walk you 
through this.
    I think there--I think it's very, very, very plausible.
    Mr. Steube. In your testimony, you highlighted a tradeoff 
between sanctions blocking access to the United States and 
enforcing other accountability measures against human rights 
violators.
    How would you recommend we resolve this tradeoff in U.S. 
policy?
    Ms. Fontenrose. Can you repeat that one more time? I'm 
sorry. It kind of broke up.
    Mr. Steube. Sure. In your testimony, you highlighted a 
tradeoff between sanctions blocking access to the United States 
and enforcing other accountability measures against human 
rights violators. How would you recommend we resolve this 
tradeoff in U.S. policy?
    Ms. Fontenrose. I do not think it has to be a tradeoff. We 
could also choose to simply sanction businesses that Mohammed 
bin Salman has a stake in and, therefore, avoid the tradeoff 
issue at all.
    He is the head of the Sovereign Wealth Fund. He also holds 
many of the private sector companies in Saudi Arabia under his 
personal portfolio, and one of them, for instance, we know 
owned the planes that were used to transport the kill operation 
to and from Turkey.
    So we could choose to sanction businesses he's associated 
with instead of sanctioning himself and that might then lessen 
the risk of reducing U.S. access in the country and lessen the 
risk of retaliation and negate any tradeoff.
    Mr. Steube. Well, thank you for being here today. My time 
is almost expired. So I yield back.
    Mr. Deutch. Thank you very--thank you very much, Mr. 
Steube.
    Mr. Keating, you're recognized for 5 minutes.
    Mr. Keating. Thank you, Mr. Chairman.
    When we're looking at what we can do in terms of human 
rights concerns and, particularly, the discussion centered on 
MBS and what we could do, to look at the actions he's taken 
without compromising our policy, it's really interesting.
    I've been noticing on television--I think maybe some of the 
people here in the committee hearing have been noticing the 
television--the promotions, the tourist promotions that are 
much more extensive than they ever were for tourism travel into 
Saudi Arabia, and Mohammed bin Salman took his oil interests 
and transferred a great deal, billions of that, toward a Vision 
2030.
    But also, specifically on the tourism, the high-end tourism 
industry where the Red Sea development companies and other 
companies that he's been very involved with and controls to a 
large measure, pouring those billions of dollars into there, 
and the hypocrisy of these resorts and hotels and airports that 
he's upgrading and creating and the rules that are there in 
terms of women wearing bikinis or the serving of alcohol or 
whether--you know, whether they can even--unmarried couples can 
share rooms, those things are like a for-profit hypocrisy to 
everything else they're doing in the country as well.
    So my question is, given his personal focus and investment 
on this, given the fact that in one end, he's really being 
hypocritical about many of the things he's doing, particularly 
the things he's doing to still allow from the State standpoint, 
taking away human rights issues and, in particular, rights of 
women.
    What's going on on the private side? Are you aware of any 
private groups or private citizen groups that are interested in 
these human rights issues, that are interested in what's being 
done to hurt women's equality there?
    Whether there's advocacy groups, whether there's any 
acknowledgment of businesses that are having meetings there? 
What can we--are you aware of what's going on on the other 
side, the nongovernmental side, of approaching the violations 
for human rights that the Saudi government does by looking at 
these investments, investments, by the way, that require 
participation from many of the countries who are working to 
make sure these norms no longer exist.
    Anyone who wants----
    Dr. Aldosari. I can talk a little bit about that.
    Well, the fact is, yes, there are a strong drive from the 
leadership toward creating something similar to the Dubai 
environment, a climate where it really is global and open to 
tourists and international business, foreign business in 
particular.
    But it wasn't very successful because of the structural 
problems. We have seen increased fees on migrant workers, for 
instance. Migrant workers represent half of the work force 
inside Saudi Arabia and a third of the population.
    Many of them do not really enjoy, you know, the freedom to 
change jobs or to exit. But there were some reforms allowed for 
some segments of the work force--not the domestic workers or 
the most vulnerable--to change their jobs or to leave the 
country without consent.
    So there are some policy problems to engaging foreigners 
inside Saudi Arabia. There are also more problematic issues 
when it comes to creating those futuristic cities. Those 
futuristic cities are aimed to be directed toward the foreign 
population rather than the local population. So it does not 
really change the situation for the local tribes.
    We have seen forced relocation in NEOM for the futuristic 
city, for instance, of al-Huwaitat tribes in which several were 
imprisoned--several people were imprisoned and one was killed 
for refusing the forced relocation.
    There are groups, private groups, of course, engaging in 
those issues. Some of them are from the people in exile, the 
Saudis in exile, who are meeting regularly with, you know, 
influential figures and influential groups.
    But one of the main hurdles that we face is the poor 
communication with officials. So these people do not have a 
channel of communication with their officials or with the 
officials who are visiting Europe and promoting these kinds of, 
you know, initiatives.
    So I would say, yes, there are private groups working 
toward improving the situation of human rights and highlighting 
those issues. But because of the atmosphere of repression 
inside Saudi Arabia, it's becoming more difficult for us to 
gather testimoneys or to get information, real proper 
information, on what's happening and who's most affected by 
this kind of----
    Mr. Keating. Well, if I could interrupt. I'm sorry. But, 
for instance, there is a French company that's doing massive 
investments in this, too. We're sanctioning other companies and 
corporations in the world for other activities. This is a way 
the U.S. could approach it from a governmental standpoint, but 
also those of us that are concerned as U.S. citizens and people 
that are interested to do it in a private way--that was my 
point--from the outside.
    Because if we hurt this massive investment because of their 
actions in human rights and the way they treat women, then I 
think that might pressure him more, instead of just the veneer 
of these cosmetic changes that he has made.
    With that, Mr. Chairman, I yield back.
    Mr. Deutch. Thank you, Mr. Keating.
    Dr. Jackson, you're recognized for 5 minutes.
    [No response.]
    Mr. Deutch. Is Representative Jackson still on?
    Mr. Jackson. Thank you, Mr. Chairman. I appreciate you 
recognizing me. I think that most of the questions I had have 
already been answered at this point. So I'll yield back the 
rest of my time. Thank you, sir. Appreciate it.
    Mr. Deutch. Thank you very much.
    Mr. Vargas, you are recognized for 5 minutes.
    Mr. Vargas. Thank you very much, Mr. Chairman. Again, I 
want to thank you for holding this hearing and I particularly 
want to thank the witnesses for their important testimony.
    I also want to thank my good friend, Mr. Connolly from 
Virginia, for his leadership in pursuing justice for Mr. Jamal 
Khashoggi.
    But it does seem like we're in a very difficult place, and 
we want to continue our important relationship with Saudi 
Arabia. And it also seems like the Saudi royal family seems to 
have picked Mohammed bin Salman as their future leader.
    So here we are. It seems like we have a very difficult time 
really treating the murder of Jamal Khashoggi as a murder 
because we do not really believe in regime change, and if we 
try, we're not normally very good at it anyway.
    So here we are. We continue to make very strong statements 
about human rights, and I think we should, and certainly I 
believe in them.
    But it does seem that we're stuck in a very difficult 
place, treating this really like a murder because of the 
situation we're in. I mean, am I wrong about that, Ms. 
Fontenrose?
    Ms. Fontenrose. You're absolutely right about that. That is 
exactly the cognitive dissonance we're facing right now is the 
king in Saudi Arabia has chosen Mohammed bin Salman as the next 
leader of Saudi Arabia, and Mohammed bin Salman has shored up 
his likelihood of succession.
    So then the U.S. must ask itself what are our priorities in 
terms of not only the relationship but what we want for years 
to come in terms of Saudis' role in supporting our objectives 
in the region and elsewhere?
    Can we work with this person? If not, what are our options, 
and they're fairly limited? If so, what do we need to do?
    What steps do we need to take to ensure that the direction 
of the kingdom is such that they are a productive and helpful 
partner and not one that we are constantly having to turn 
around and rebuke and scold for massive foreign policy 
problems?
    And I think that's what we're talking about today, trying 
to find the ways that we can lead Saudi Arabia to this kind of 
change we're looking for, because if he is the king and he does 
survive, as his predecessors have, then we'll be dealing with 
him for the next 10 presidencies.
    Mr. Vargas. No, I agree. So in light of all that, then I'd 
like to ask Dr. Aldosari. You know, one of the things that I 
think is very, very important is, obviously, the issue of 
women's rights.
    And I've been to Saudi Arabia a few times myself on CODELS 
and it is glaring. I mean, it's obvious the lack of rights that 
women have. I mean, how can we push harder and at the same time 
not get people imprisoned and killed over this?
    I mean, I was surprised. You open up the issue of driving 
for women, then you arrest the women that were pushing for 
women to drive. I mean, what can we do?
    Dr. Aldosari. Exactly. So I would suggest that, you know, 
the U.S. uses its position--its position as an ally, as a 
protector, to push for those reforms, to amplify the voices of 
the civil society and the women activists.
    The women activists did not only represent a voice for 
reforms. They were in a place where there's very limited 
support and resources available for most vulnerable groups. 
They were able to amplify their voices.
    They were able to, for instance, apply for a shelter for 
survivors of violence. That is not very limited in terms of 
services and access, as the government operated government-
sponsored shelters.
    So I think that one key thing is to establish a good 
support or a good relationship with the civil society in Saudi 
Arabia. Mostly are in exile now. They're not really active from 
within. Even those who were released from prison are banned 
from resuming any kinds of activism.
    But at least with the civil society of Saudi Arabia, who 
are in exile outside, there is a National Assembly Party that 
has been formed last year by some of the scholars and activists 
and diaspora that is calling for a democratic transition and 
highlighting the issues from the point of view of the people.
    So having, you know, informed voices from the civil 
society, Saudi civil society, and try to amplify their demands 
for reforms and amplify their voices is a good first step to, 
basically, push for more reforms in Saudi Arabia that is based 
on public needs.
    Mr. Vargas. Well, I have to say, again, I think that we 
have some leverage here because of this murder. I do think 
that, you know, that MBS does care about his image, and I do 
think that we can do the things that you said, you know, for 
women and the activists within and outside of the country by 
pushing harder and making our voice heard.
    Again, it's a very difficult situation. But it seems that 
this situation that we're in does not seem like we have a whole 
lot of options.
    I see that my time is expired, and Mr. Chairman, I yield 
back. Thank you.
    Mr. Deutch. Thank you very much, Mr. Vargas.
    Mr. Schneider, you're recognized for 5 minutes.
    Mr. Schneider. Thank you, Mr. Chairman, and thank you for 
having this committee. I want to thank the witnesses and I'll 
start with you, Ms. Fontenrose, and I'm trying to figure out 
how to juxtapose two separate questions.
    I guess I'll start picking up what was discussed earlier 
about normalization. The Abrahamic Accords, the dynamic of 
things happening in the region and around the world that are 
creating, I think, a unique opportunity to promote 
naturalization and, certainly, the United States has a role to 
play in fostering that but also within Saudi Arabia.
    Just curious, and to all the witnesses as well, have you 
seen any steps within Saudi Arabia for the regime to be laying 
the groundwork with the people toward moving closer toward 
normalization, and any sense of what the public might be 
willing to accept or where the leadership might be willing to--
or able to move them to on what normalization might look like?
    Ms. Fontenrose. We have heard statements and rhetoric out 
of the Saudi government that are supportive of the Abraham 
Accords and supportive of the concept of normalization. It does 
appear that they are trying to prepare their population for the 
idea that Saudi Arabia should and could have a future 
relationship with Israel.
    There has not been any negative messaging out of Saudi 
Arabia about the Accords from the official government. Now, 
this is different than what we're hearing about from some parts 
of the population.
    Saudi does have a fairly right wing and conservative and 
anti-Israeli segment of their population that is of concern in 
terms of creating change too quickly in Saudi Arabia, what 
might their reaction be.
    But the government itself, yes, has been--has been very 
pro-normalization in terms of their support for the idea that 
Israel could be a partner for peace.
    Mr. Schneider. Great, thank you.
    Dr. Aldosari. I would just add one thing here.
    Mr. Schneider. Please. Please.
    Dr. Aldosari. I'm sorry to interrupt.
    There is an intelligence sharing and cooperation with 
Israel. In fact, the software used to hack into Jamal 
Khashoggi's phone and other dissidents abroad was authorized by 
the Israeli Ministry of Defense and sold to Saudi Arabia and 
used in most of the hacking attempts.
    So I would say that there is already an ongoing 
relationship with the Saudi government and the Israeli 
government. But there is, of course, a very strong sentiment 
against any kinds of normalization from the people, not 
necessarily because they were--they are conservative Islamist, 
not from an Islamic point of view only, but also from a point 
of standing with the Palestinians' rights of self-
determination.
    This is not something that is mentioned in the Accords and, 
you know, this kind of individual normalization that would 
put--you know, would put no pressure whatsoever on Israel to 
solve the conflict with Palestinians, this is something that 
most of the rights groups in the region are against, not only 
the Saudis.
    Mr. Schneider. All right. Thank you for that.
    With the last 2 minutes I'll go a slightly different 
direction and, Ms. Fontenrose, I will point to--finish with 
you.
    You know, very broadly, this applies everywhere but we're 
focused on Saudi Arabia. How would you describe the 
implications for U.S. foreign policy and outcomes when we do 
not get the right balance on emphasis on human rights issues?
    And to be clear, that can be either putting too little or 
too much emphasis, although I have my own bias that there's no 
such thing as too much.
    What is the implications of not getting that balance right? 
And I think we have lost Ms. Fontenrose.
    Mr. Deutch. Mr. Schneider, why do not you ask the question 
again? I'll give you additional time.
    Mr. Schneider. Thank you. Ms. Fontenrose, can you hear me?
    [No response.]
    Mr. Schneider. I'm not sure if we have audio connection. 
Are you able to hear me, Ms. Fontenrose?
    Ms. Fontenrose. I apologize. I lost power for a second 
there. Can I ask you to repeat that?
    Mr. Schneider. No worries. Yes, I'll repeat the question.
    What I'm saying is that in foreign policy in general, but 
we're talking Saudi Arabia and specific to the delicate balance 
of the emphasis we place in our foreign policy on human rights, 
and, you know, clearly, it can be not enough emphasis, too much 
emphasis.
    I have my bias it is not possible to put too much emphasis 
on human rights. But what are the implications for foreign 
policy for not getting the balance right?
    Ms. Fontenrose. I think the--there's no negative to 
stressing human rights. I think the balance we need to strike 
is in not being the only voice calling for them.
    We need to make sure that it's not simply an American 
request but that this is an international request. You know, we 
want Japan, we want Europe on side with us saying that these 
are expectations of the global world order and we're going to 
need you to raise your baseline to meet them.
    Because otherwise, we do risk isolating ourselves. You 
know, it's true that we do not think any of these countries 
that we're talking to about human rights are necessarily going 
to jump into the arms of others in terms of their leading 
partners right away.
    But the more that we drive ourselves to a point where we're 
asking them to take great, great, great steps--you must sign on 
to this agreement that says that you will do certain 
maintenance and training and in user agreements and we're going 
to put ethics training into our military sales while other 
countries aren't doing that makes us a more expensive and a 
more difficult partner.
    And we should not lower our standards, but we should be 
diplomatically pressuring our partners at the least to meet 
those same standards, whether it's in nuclear energy or whether 
it's on military ethics training.
    Whatever it is, we shouldn't simply be focusing on the 
human rights violations. We should be focusing on the global 
voice that's calling for the rise in that standard.
    Mr. Schneider. Thank you. And I'll add, you know, having 
the consistent message and engaging with our allies not just 
here and there but across the board is a easier way to do that.
    So I thank you. I went over time. Thank you, Chairman,
    Mr. Deutch. Thank you, Mr. Schneider.
    I will now yield myself time for questioning. Thanks to all 
of the witnesses for your testimony. It's been a really good 
hearing.
    Dr. Aldosari, I want to focus on what you said in response 
to a recent question. We have had a lot of conversation today 
about the needs of Saudi Arabia and the Crown Prince, about the 
needs of America.
    Obviously, as we have discussed, the Saudis are concerned 
about Muslim Brotherhood. They're concerned about Iran. They 
have very real security needs.
    As they look out to the future, there is talk of 
diversifying from oil. The Crown Prince's Vision 2030 was a 
bold idea--women driving_there's a lot that the Saudis are 
thinking about and doing.
    We spent this whole hearing talking about the importance of 
American values and human rights and why we cannot separate our 
pressing for human rights advances with recognizing the 
interests that we have in Saudi Arabia.
    But I want to focus, Dr. Aldosari, on what you said, which 
is the public needs. And in your conversation with Mr. Vargas, 
you talked about what happens when the government jails the 
same people that are now able to drive. They're jailed because 
of reasons that they're told they have nothing to do with that.
    But when we look at the public needs, going forward, and 
the young people in Saudi Arabia, where does--where does real 
reform in women's rights come in? How is it viewed? How 
important is it?
    Dr. Aldosari. It's very significant now and it's actually 
been recognized and acknowledged by Mohammed bin Salman and the 
government as a very important card, basically, to--not only 
for the economy but also for improving the image and meeting 
the youth needs, the youth demands.
    So, as one of my colleagues mentioned, women's rights 
represent, you know, a consensus, basically. The drive of the 
woman to move rights is a consensus across different religious 
and different ethnic groups and even different socioeconomic 
status. Women are now entering the military.
    So there have been advances. But the problem is, again, as 
I said, without people able to come together to express their 
needs and demands and to expose what kinds of loopholes exist 
in the policies, it is going to be very difficult to sustain 
those kinds of reforms.
    For instance, the government said that they will enact, you 
know, family laws and they will codify the criminal law, you 
know, soon--that those things will be launched soon.
    But we have seen other similar countries in the region--
Qatar, Bahrain, and Kuwait--they do have family laws, but it is 
very much an institutionalizing the discrimination against 
women in the family and the power of the male guardians, and 
most important decisions of marriage, divorce, child custody, 
custody and assets within marriage. So it didn't really relieve 
the pressure from women.
    So I would say having women activists coming together and 
being able to voice those concerns and, basically, being able 
to mobilize their community as they used to so that the change 
of the norms around certain issues is vital and the--and this 
is something that needs to be moving as well.
    Mr. Deutch. Let me--let me just try to make this a finer 
point here, Dr. Aldosari. The changes that we have seen, the 
opening up to music, to dancing, things that we have been told 
we wouldn't see because of religious restrictions, we're now 
seeing, and it's important to young people.
    On the issue of all of--of how the laws around guardianship 
are viewed and interpreted, is it--can we be hopeful that given 
the way young people have viewed the changes that have taken 
place already that it is imperative that the government 
understand that there will have to be comparable changes there 
as well in the role of women?
    Dr. Aldosari. I think it is understood by the government, 
but how much or how far they're willing to go, they're not 
really willing to, basically, dismantle this kind of power of 
men over women in the family, and it has been actually voiced 
out by Mohammed bin Salman in one of his interviews.
    He said, ``We do not want to challenge the family 
structure, and charges against the women activists is 
destabilizing the foundation of the Saudi society.''
    And these are very broad terms which, basically, comes to 
women trying to be equal to men in terms of bigger rights. The 
fact that men still hold women, you know, under--you know, 
under their power by charges of disobedience and absence from 
home just render all kinds of reforms and new rights granted to 
women useless, basically.
    Mr. Deutch. Thanks. And if it's OK with the ranking member, 
I'm going to yield myself just a little extra time to ask one 
more question. Thank you.
    Ms. Nossel, I want to ask you the same question about young 
people and the public needs of young people in Saudi Arabia, 
going forward, but this time viewed through the lens of freedom 
of expression, of the rights of journalists, of bloggers.
    Obviously, we live in an age where the world is more 
interconnected than ever before. Young people understand the 
importance of that interconnectedness.
    So when you look at the case of--when you look at Badawi, 
you look at these other cases, isn't it--can we see the needs 
of the public driving to such a point where our pressing for 
human rights and the government's need to acknowledge the 
demands of young people are going to coincide?
    Ms. Nossel. You know, I think possibly, although, you know, 
the government is sort of, you know, playing this game of 
trying to--it's a playbook, you know, that I think the Chinese 
have really perfected, which is that you open up on music and 
entertainment and social media but within very strict 
parameters, and that opening, you know, gives people the sense 
that they are able to communicate, take advantage of these 
technologies, enjoy some of the rewards.
    But anytime it verges toward actual dissent, organizing, or 
the expression of independent political opinion, you know, 
that's where the buck stops and the system is tightly 
controlled.
    I think in Saudi Arabia, you know, we do see this kind of 
bleeding over between the activist core and a much wider public 
opinion.
    It's evident in the area of women's rights, as Dr. Aldosari 
said, where it has become a consensus viewpoint. You have this 
crucible of activists who put themselves on the line and paid 
an incredibly high price in giving up their freedom to be on 
the forefront of that campaign.
    But then you see, you know, scores of Saudi women across, 
you know, socioeconomic, professional, religious, and 
geographic lines supporting it, and that has driven the 
government toward some change.
    So I think we have to be optimistic. I think we have to 
believe that in the long arc and, you know, I think that's 
important when we think about the outcome after the murder of 
Khashoggi, you know, whether in a few years, you know, 4 years, 
8 years, we'll be able to say that there was substantial 
movement.
    I think, you know, if there is, I believe, even if we 
cannot see this mass pressure for free expression across Saudi 
Arabia, it is there.
    You know, I believe free expression is a universal drive 
and hunger that people have, and we saw it in Saudi with the 
burgeoning of social media, you know, over the last several 
years, now more repressed.
    So I think ultimately, yes, although we shouldn't 
necessarily expect--criticize about the short term.
    Mr. Deutch. Great. Well, thank you very much, and just 
invoking the word optimism in today's hearing, I think, is very 
much appreciated, as Ms. Fontenrose points out.
    Should things go the way they're headed now and, 
ultimately, the Crown Prince becomes the king and is the king 
throughout 10 presidencies--thank you for putting it in bold 
terms like that, Ms. Fontenrose--this is--there's a reason that 
we need to continue to press on human rights because this is a 
long game and America's voice is critically important, as we 
recognize both the importance of the relationship and, most 
importantly, the importance of our values and human rights and 
advancing that relationship.
    So to all of the witnesses, I want to say thank you for a 
really informative and interesting conversation. I want to 
thank the members for participating, and I want to thank the 
staff for pulling off a relatively seamless virtual hearing. 
Thanks to all of them as well.
    Ranking Member Wilson, thank you for your leadership, and 
with that, this hearing is adjourned.
    [Whereupon, at 12:08 p.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
            


                                 <all>
</pre></body></html>
